*

t.

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Lamont R. Reed

- PETITIONER

VS.

Scott Frakes, Director

RESPONDENT

Nebr. Dept, of Corr. Svcs.

APPENDICES

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2202

Lamont R. Reed
Petitioner - Appellant
v.
Scott Frakes, Director of the Nebraska Dept, of Corr. Svcs.
Respondent - Appellee
Appeal from U.S. District Court for the District of Nebraska Omaha
(8:19-cv-00448-RGK)
JUDGMENT

Before LOKEN, BENTON, and KOBES, Circuit Judges.
This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
August 25, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
APPENDIX A

,

Case: 8:19-cv-00448-RGK-PRSE

Document #: 18-1

Date Filed: 04/13/2020

Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
LAMONT R. REED,
8:19CV448

Petitioner,
vs.

MEMORANDUM AND ORDER

SCOTT FRAKES, Director of
Nebraska Dept, of Corr. Svcs.;

the

Respondent.
Pending before me is Respondent’s motion for summary judgment claiming
Petitioner’s habeas petition is barred by the limitations period set out in 28_ITS..CJ
2244(d). Respondent is correct, and the motion will be granted. Also pending before
me is Petitioner’ s motion for additional documents. Since Respondent voluntarily
produced four of the six documents requested and the two that were not produced
irrelevant or the reason for production has been mooted, that motion will
are either
be denied.
Facts
1. After entering into a plea agreement regarding six felony charges, a state
trial judge found Petitioner guilty after a plea of no-contest and sentenced
him to a long prison sentence.1 Filing no. 10-4 at CM/ECF pp. 4-8.

1 Reed was arrested after he sold heroin and oxycodone pills to a cooperating
individual on several occasions. A search of his home revealed a brick of heroin
weighing 99.5 grams, over 100 oxycodone pills, digital scales, $10,000 m U.S.
currency, three handguns, and 86 rounds of ammunition. Reed admitted he had been
selling heroin and “pills” for about a year and a half, making approximately $6,000
per week. Filing no. 10-7 at CM/ECF p. 1.
APPENDIX B

Case: 8:19-cv-00448-RGK-PRSE

Document #: 18-1

Date Filed: 04/13/2020

Page 2 of 6

2. With new counsel, Petitioner perfected a timely direct appeal on February
22, 2016. Filing no. 10-2 at CM/ECF p. 2. On December 2, 2016, the
Nebraska Court of Appeals affirmed the conviction and sentence. Filing
not file a petition for further review. Under
no. 10-6.
Nebraska law, the Court of Appeal’s decision was not final until 30 days
after the opinion was issued and the time for filing the petition expired.2 In
this case, that date was January 3, 2017 (given an intervening Sunday and
Monday, New Year’s Day.)3
3. On December 11,2017,342 days later, Petitioner filed his motion for postconviction relief. Filing no. 10-5 at CM/ECF p. 1.
4. Ultimately, the post-conviction motion was denied, Filing no. 10-5 at
CM/ECF pp. 13-21, and his appeal was unsuccessful, Filingno. 10-7. The
Nebraska Supreme Court4 issued its mandate on September 9, 2019. Filing
no. 10-3 at CM/ECF p. 2. At that point, Petitioner had until October 2,
2019—23 days—to file his federal habeas petition.
5. He placed his federal habeas petition in the prison mailbox on October 9,
2019. Filingno. 1 at CM/ECF p. 17. His petition was filed in this court on
October 11,2019. Filing no. 1 at CM/ECF p. 1.
6. If one applies the prison mailbox rule, at least 372 days had run on the
federal statute of limitations by the time Petitioner’s federal habeas action
was commenced.
2 Neb. Ct. R. App. Prac. § 2-102(F) (setting forth 30-day deadline to file a
petition for further review).
3 Neb. Rev. Stat. § 25-2221 (West) (Time; howcomputed).
4 The Nebraska Supreme Court elected to bypass the Court of Appeals and
placed Petitioner’s appeal on the Supreme Court’s docket.
2

Case: 8:19-cv-00448-RGK-PRSE

Document #: 18-1

Date Filed: 04/13/2020

Page 4 ot b

Analysis
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
imposed a one-year statute of limitations on petitions for a writ of habeas corpus
filed pursuant to 28 U.S.C. § 2254. 28 U.S.C. § 2244(d)(1). 28 U.S.C. § 2244(d)
states in pertinent part:
(1) A 1-year period of limitation shall apply to an
application for a writ of habeas corpus by a person in
custody pursuant to the judgment of a St cite court. The
limitation period shall run from the latest of—
(A) the date on which the judgment became final by
the conclusion of direct review or the expiration of
the time for seeking such review;
/§)) the date on which the impediment to filing an
application created by State action in violation of
the Constitution or laws of the United States is
removed, if the applicant was prevented from filing
by such State action;
(C) the date on which the constitutional right
asserted was initially recognized by the Supreme
Court, if theright has been newly recognized by the
Supreme Court and made retroactively applicable to
cases on collateral review; or
(D) the date on which the factual predicate of the
claim or claims presented could have been
discovered through the exercise of due diligence.
Respondent submits that Petitioner’s habeas petition must be dismissed
because it was not timely filed and is barred by the limitations period set forth in 28
U.S.C. § 2244(d). Respondent is correct. Giving Petitioner every benefit of the
doubt, he missed the filing deadline by seven days. Petitioner’s inventivgjrgurnentg,
to the contrary, no statutory basis saves Petitioner. Neither does equitable tolling^

3

Case: 8:19-cv-00448-RGK-PRSE

Document #: 18-1

Date Filed: 04/13/2020

Page 4 ot 6

First, Petitioner in effect argues that his judgment on the direct appeal did not
become final until 90 days after the filing of the decision of the Court of Appeals on
direct appeal. In other words, he argues the clock didn’t start until on or about March
3, 2017 and not January 3, 2017. He would be correct if the Nebraska Supreme Court
had ruled on the matter. But since Petitioner did not file a petition for furtherrgyiew..,
with the Nebraska Supreme Court,junder the United States Supreme Court’s clear^
folding in Gonzalez, v. Thaler, 565 U.S. 134, 150 (2012)7for astate prisoneFwho,
1

..................................... .— -II

_

_

/

does not seekjgview in .^State’s highest court, the judgment becomes “fjnaUfgr_,
pmposeTofT2244(d)( 1 )(A) on the date that the time for seeking such review_
.

expires.
i.

I

'SJ.

Petitioner also argues that he filed a motion seeking discovery of his
presentence report in the state trial court before he filed his post-conviction action
and that any time taken up by that motion and its ultimate denial (once again before
any filing of a post-conviction action) is not counted. It is true that Petitioner sought
discovery of the contents of his PSR (specifically the opportunity to read it) by filing
a motion in state court on July 13, 2017, Filing no. 16-1, and that the motion was
denied on September 12, 2017, Filing no. 16-3.
But under Nebraska law, Petitioner was not entitled to any discovery without
first filing a post-conviction action. Id. More importantly, under federal law
Petitioner’s premature discovery request did not stop the federal clock from ticking.
Hodge v. Greiner, 269 F.3d 104, 107 (2d Clir. 2001) (holding that a petitioner’s
motion to obtain discovery was not an ‘“application for State post-conviction or
other collateral review’ within the meaning of subsection 2244(d)(2)”). The Ninth
Circuit has come to the same conclusion based upon the reasoning in Greiner.
Ramirez v. Yates, 571 F.3d 993, 1000 (9th Cir. 2009) (discovery motions filed in
state court by habeas petitioner convicted of residential burglary did not statutorily
toll the habeas limitations period, since they did not challenge his conviction, but
simply sought material that could help in later state proceedings; if it were otherwise,
prisoners could circumvent the AEDPA limitations period). See also Woodward v.
Cline, 693 F.3d 1289,1294 (10th Cir. 2012) (a defendant's state-court postconviction
4

Case: 8:19-cv-00448-RGK-PRSE

Document #: 18-1

Date Filed: 04/13/2020

Page 5 ot b

motion for DNA testing regarding murder did not toll AEDPA's one-year limitations
period).5
Additionally, Petitioner argues that equitable tolling (or a state created
impediment to a timely federal filing pursuant to 28 U.S.C. § 2244(d)(1)(B)) saves
him. He complains that he was transferred for a period of time to a county jail that
lacked adequate legal resources6, that he was transferred to different facilities within
the Nebraska Department of Corrections, that time was “wasted” when the state trial
judge denied h is motion for discovery after first setting the matterfor a hearing and
then deciding that a hearing was unnecessary, and that his trial attorney misadvised
him about the factual basis when he entered his plea of no contest. I do not agree
that these complaints excuse thetardy filing.
As the Eighth Circuit has madedeaiCEequitable tolling is proper only when_
extraordinary circumstances beyond a prisoner s control make it impossible to file a
p^~^n tii942, 945 (8th Cir. 2008) (emphasis in
original) (citing and quoting Finch v. MlttFT^491 F-3d 424, 427-428) (8th Cir.2(X)7)).
Nothing alleged~herecomes close to that standard. Moreover, none of Petitioner’s
complaints rise to the level of a state created impediment to the filing of a timely
jpJ^'Y^trrion'’ TEe language off"2244(d)(1)(B),"concerns impediments to the
pursuit of federal habeas relief, not state postconviction relief. Indeed, when all is
said and done, after the last state court ruling became final, Petitioner had over three

5 Petitioner wants the Respondent’s “Outgoing Legal Mail” logs from
September 12, 2017 to September 25, 2017 to show when Petitioner mailed his
motion to alter or amend the trial judge’s denial of his discovery request. As
discussed in the text, under federal law discovery motions submitted prior to post­
conviction actions do not stop the clock. So, therequested document is irrelevant.
6 Petitioner alleges that he was at the jail from August 29, 2016 to December
28, 2016 and from January 11,2017 to January 20, 2017. Filing no. 12 at CM/ECF
p. 12. I assume those dates are accurate. I also assume that the dates he alleges he
was housed in various Department of Corrections’ facilities are accurate. Therefore,
his motion for production of the prisoner movement logs is moot.
5

C.ase: 8:19-cv-00448-RGK-PRSE

Document #: 18-1

Date Filed: 04/13/2020

Page 6 of 6

weeks to file his federal habeas corpus petition and he alleges nothing during those
23 days that interfered with his ability to file a timely federal habeas petition.
To summarize, although Petitioner nearly made the deadline, close is not good
enough.See, e.g.,Modrowskiv. Mote, 322F.3d 965, 966 (7th Cir. 2003) (affirming
dismissal of habeas petition that was one day late). Therefore, Petitioner’s habeas
petition will be dismissed as untimely.
Finally, a petitioner cannot appeal an adverse ruling on his petition for writ of
habeas corpus under § 2254 unless he is granted a certificate of appealability. 28
U.S.C. § 2253(c)(1); 28U.S.C. § 2253(c)(2);Fed. R. App.P. 22(b)(1). Thestandards
for certificates (1) where the district court reaches the merits or (2) where the district
court rules on procedural grounds are set forth in Slackv. McDaniel, 529 U.S. 473,
484-85 (2000). I have applied the appropriate standard and determined that
Petitioner is not entitled to a certificate of appealability.
IT IS ORDERED that the petition for habeas corpus, Filing no. 1, is dismissed
with prejudice. The motion for summary judgment, Filing no. 9, is granted. The
motion for production of documents, Filing no. 13, is denied. No certificate of
appealability has been or will be issued. A separate judgment will be filed.
Dated this 13th day of April, 2020.
BY THE COURT:

Richard G. Kojff
Senior United States District Judge

6

pase: 8:19-cv-00448-RGK-PRSE

Document #: 19-1

Date Filed: 04/13/2020

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
LAMONT R. REED,
8:19CV448

Petitioner,
vs.

JUDGMENT
SCOTT FRAKES, Director of
Nebraska Dept. ofCorr. Svcs.;

the

Respondent.

IT IS ORDERED that the Petition for Writ of Habeas Corpus (and any
amendments or supplements thereto) is denied and dismissed with prejudice. No
certificate of appealability has been or will be issued.
Dated this 13th day of April, 2020.
BY THE COURT:

Richard G. Ko
Senior United States District Judge

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2202
Lamont R. Reed
Appellant
v.
Scott Frakes, Director of the Nebraska Dept, of Corr. Svcs.
Appellee

Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:19-cv-00448-RGK)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
October 20, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

appendix c

